\

No. 20-344

IN THE
SUPREME COURT OF THE UNITED STATES

JON MYERS, PETIONER

v.

SONDRA MYERS and others

On PETION FOR A WRIT OF CERTIORAIR TO THE SUPREME JUDICIAL
COURT OF MASSACHUSETTS FROM A MOTION TO DEFINE AND STOP AN
EVIL CASE OF EMOTIONAL ABUSE AND FOR RELIEF THEREOF

PETITON FOR A WRIT OF CERTIORARI

PETITION FOR REHEARING
Jon Myers, Pro Se Petitioner
209 Riverview Avenue #35
Auburndale, MA 02466
(617) 899-0383
ion@calminterventions.com
For the Respondents:
Michael R. Perry, Esq.
Hunton, Andrews and Kurth
60 State Street “
Bostoi l,

ED
DEC 1 6 2020

OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS FOR PETITION FOR REHEARING
1. In the middle of the night on November 15, 2020, did Myers receive divine
intervention elevating and encouraging onward Myers’s work on this matter,
and then replicated on December 7, 2020, and even December 11, 2020
emphasizing the meaning of life and urging Myers in a loving sense?
2. Are there other sufficiently intervening matters, pertaining to health, life,
family and children which have arisen since the filing of the Petition, on or
about September 15, 2020?
3. Is Myers raising imperative issues, vital to the spiritual health and well­
being of America, which have not been adequately understood? In that
respect, does this very Petition provide an opportunity for opening the
gateway to healing the American spirit?

I

DISCUSSION
Introduction
Now nearing twenty-five years of work, perseverance and struggle on this
situation, Myers has continually embraced a deep spiritual sense of this particular
journey; indeed, he has declared this a Biblical level story. This case cannot be
confined, to merely existing law and practice, because it is unto itself a ground­
breaking case, societally, if not meritoriously legally. This case, and the backdrop to
it, shreds open the societal understanding of emotional/psychological abuse, and the
capacity to conduct this heinous behavior for “decades.”1
The challenge in this situation is clearly to depict it poignantly because, as
hard as it is to understand, Myers does not know everything, but knows that the
standard of the Tort for the Intentional Infliction of Emotional Distress of an
“average member of a community being moved to exclaim: “Outrageous!” will be met
and exceeded, when the reader correctly comprehends the horror of what is
transpiring. In that Myers has in God’s world, in our universe and highest of highs,
called the Honorable Supreme Court an intermediary court, under the realms of
love, life and truth itself, Myers proceeds with his sense of intervening events, since
November 16, 2020, the date of this Honorable Court’s denial of Myers’s petition.

1 "Decades” is a key word, in that Nathan Myers, Myers’s younger brother and perhaps the leading
antagonist in this, flung this word at Myers, in terms of stating that he had nothing to do with Myers
for decades. In the deep deviance of personality-disordered psychological abuse, the perpetrator
establishes an aura of invisibility, truly acting horrific ways, while claiming non-involvement.
1

QUESTIONS: DREAMS. DIVINE INTERVENTION AND
LOVING ENCOURAGMENT
With the utmost love and respect, Myers sees the Honorable Supreme
Court as the highest of our cherished American legal system, and still only
intermediary with respect to the ideals themselves, of truth, liberty, and justice. It
is a cautionary sense, a pause if you will for all of us, because if we honestly believe
that we, as women and men are the highest powers than there can be tendencies for
our other occasionally adverse human tendencies to creep into the picture may
arise. These tendencies include, but are not limited to: arrogance, over believe in
our importance, and even vindictiveness.
Humans acting with any sense of higher power, be it God, the universe,
source, or something can be like breaks with no brake pads or a car, or perhaps
even without breaks themselves. Myers surely does not consider himself exempt
from such encouragements and admonishments. Given the uniquely solitary nature
of Myers’s epic twenty-five-year journey; he has on occasion experienced extremely
strong dreams which serve as a wake-up call, correction, or guideposts for Myers.
On such incident occurred in the morning of November 15, 2020, partially in
response to Myers’ further reading of how the court itself handles Petitions for Writ
of Certiorari. Reading for instance, a quote from a law clerk circulating on the
internet: “That I never approved one petition...” or words to that effect underscored

2

the challenge, if not a certain reality of Myers’s petition brought to conference on
November 13, 2020 and DENIED on November 16, 2020.
The net effect of Myers’s dream of that date was to encourage Myers onward
and to do So in a loving sense. In using that word, Myers cannot help but to note the
synchronicity of his usage of that word and the legendary story of Richard and
Mildred Loving brought before this Honorable Court, and how it pertained so much
to the basic rights of human beings. Myers sees his life and work, this Petition as an
act of love. Perhaps it is his greatest challenge, no matter how deeply Myers has
been battered by life and this situation, to proceed forward and to do so in a loving
fashion. No matter, how deep the indignity Myers has suffered, in his previous
petitions and filings, Myers accepts it as his responsibility to response in a loving
fashion towards his family, courts and America.
In bringing forth the notion that this is a Biblical level story, acknowledged I
part by the Massachusetts Appeals Court, Myers sees the “vile”2 abuse he has
suffered as the rich soil, in which to reshape his life and thoughts over a twentyfive-year period. To the degree, Myers emerges like a butterfly from a cocoon; that
butterfly in Myers’ mind is to educate and teach, potentially heal, and surely not
react in anger, as anything less than a loving response, might doom his message.3
So, it is patently in a loving sense, as excellently as possible encompassing his own
human imperfections that Myers brings forth his advocacy, firmly convinced of his

2 Even Sondra Myers, Myers’ mother acknowledged the possibility of her own vile actions towards
Myers in a letter in 2009
3 There is a quote from Mahatma Gandhi himself, along the lines that: ...” Any messenger of change
must speak in love, otherwise both the messenger and the message will be rejected.”
3

stumbling and/or being pushed into a morass of his own families’ and America’s
moral morass, and firmly steps forward to insist upon and influence positive change
in these areas.
ANOTHER DREAM: DECEMBER 7, 2020: The SOUL OF SAMUEL
MORRIS MYERS AND THE RIGHTS OF A PARENT TO BE A PARENT
Substantively related, another dream occurred on the morning of December
7, 2020, which highlighted some events from Myers’ familial past in Cambridge,
MA, and emphasized his son Samuel Morris Myers “Sam” (DOB May 22, 1993).
Myers legally has leaned towards emphasizing Sam perhaps a tiny bit more than
his daughter Sophia Rose Myers “Sophie” (DOB March 17, 1990) because Sophie
was three years ahead of Sam when this turmoil broke out intensively around 2002,
and seemingly slightly more removed from the direct battle itself.
For whatever reason, Sophie and Sam, have since, their births been seen in
rather special fights, as really all children deserve on some level. Still, their very
existence seems to have set off a frenzy of obsession with being involved with thenfives and showcasing themselves to Sophie and Sam, by a plethora of extended
family members. Perversely following some of the thinking from Nathan Myers
(Myers’s younger brother and antagonist of the initial Petition) and Stolzenberg
(Nathan Myers’s wife), by their actions and not their words, other people have more
right to be involved with Myers’s children, than Myers himself, even if not
especially after Sophie and Sam’s mother (“Carney”) died on or around February 1,
2016.

4

Any responsible parent knows the lengths they would go for their own child
or children. Focusing less on the psychological perversion in play, that would afford
others the opportunity to need to be significant in someone else’s children fives, and
more of the sense of soul of Sam for one, in this case. Myers has again historically
had a profound relationship with Sophie and Sam, that in its roots is about learning
and having a positive moral presence in this world. Not only has that been
adversely threatened and interrupted over the past eighteen years intensively4 and
Sophie and Sam been filled with tons of hateful, pejorative, and false thoughts
towards Myers, but missing is the positive sense of what Myers offers as a parent.
The dream of December 7, 2020 brought home to Myers the soul of Sam, and
in essence the reason(s) why Myers accepted this fight/challenge in the first place.
Myers is sincerely advocating for the fife, heart and soul of his own child. No one,
else in this situation can make that statement of direct relationship, not his family,
not lawyers, and not even the Supreme Court. Sam has a gentle soul, one which
Myers in his empathic educational sense recognizes. What greater honor is there,
then to care for, work for, and even appropriately fight for, if need be, the fife and
well-being of his old child.
Not, the crassness of some of today’s actions, but the heart of Myers’s work as
a father is what he represents, not for something foreign, for his own child. Not even
generally, but specifically for a heart, a soul, a gentleness of his son, and daughter
that perhaps only a parent can recognize. Myers has not even seen Sam, in nearing

4 The major custody battle began in 2002, and it has been correspondingly intense since then.
5

!

nine years, under extremely false pretenses, fathom the harm to Sam, to some
degree Sophie and to Myers.
It is worth noting that America arose, with much revulsion as we saw the
plight of children at the border. We do not remotely have a collective understanding
of the horror we are doing to our naturally born American children, in the horrors of
American divorce. We are horrifically separating children, from parents regularly,
and it must stop. Courts would often not know the children involved if they walked
right past them on the street.
A FINAL DREAM: December 11, 2020: A DREAM TO MOVE MYERS
TO ACTUALL SUBMITTING THIS PETITION
This very morning, Myers had a dream of driving while committing an
infraction and being pulled over. Myers again, saw this dream as a reminder to
proceed in a loving sense, arresting any anger, and inspiring Myers to proceed with
this petition.

QUESTION TWO: HAVE ISSUES WITH MYERS LIFE,
PARTICUARLY HEALTH EMERGED, WHICH AMPLIFY
MYERS’S ADVOCACY?
The main thing is that since November 16, 2020, Myers has been going
through ongoing screening and tests pertaining to an unfathomably severe pain in
his leg. There is some chance this is a cancer of some kind, which as of this date,
December 11, 2020, a biopsy has been ordered for next week. It is not that Myers
appeals to this Honorable Court solely based on sympathy, although a tad of
6

empathy* never hurt, lol; it is a function of a few other things: 1) There is
potentially an increased poignancy to Myers’s words, that he is representing a
fundamental truth that needs to be heard and understood for him, courts, and
America; 2) Myers in essence does not want to leave anything out of his effort.
Through the past twenty-five years, there has clearly been a sense of a divine
mission, where Myers has been pushed into casting aside, some of the everyday
societal concerns, and truly giving everything, he has to this work. At times, Myers
has put health, and other everyday concerns on the backburner. Even more, in way
the emotional pain, Myers has also minimized for the cause, is significant, and may
take on physical manifestations at this point. 3) Myers put his advocacy into
. .

:

actions, not just words, and while he still holds a vision of living a long and happy
life, if that were not the case, Myers would have few regrets, given the richness of
this fight, work and advocacy over the past twenty-five years.

QUESTION THREE: PERHAPS WITH ADDITIONAL MATURITY ON
MYERS’ PART IS THERE A POIGNANCY TO MYERS’S MESSAGE THAT IS
RELEVANT TO TODAY’S AMERICAN MINDSET?
Given questions one and two, and Myers’ response is there indeed a divine
message for America, in terms of recalibrating to its true message and spirit. The
cornerstone of Myers’s life and work, exhibited through this advocacy, is that it is
our goodness, which forms a greater strength6 than crassness, and cheap shot

5 Through his company Calm Interventions Inc., and Myers as The World’s Best Mediator, Myers has
founded something he calls the Science of Inner Strength. The Science of Inner Strength is about
identifying that core goodness about us, and developing and finding ways for that to be the main
vehicle for success in a highly competitive world.
7

'

L

tactics, which for one, in this instance Myers attributes to the couple of Nathan
Myers and Stolzenberg. Beyond this situation, Myers sees that there needs be a
shift in the American mindset, towards that basic goodness.
Of all things, Myers takes that sense of potentially engendering that shift

through his orange dove of love as a mission going
forward. So however, this Honorable Court sees things, Myers as long as he is able
will continue this development of American goodness. Our goodness, being the
vaccine for the spiritual virus that has gripped our country on many levels.

CONCLUSION
For the reasons contained above, Myers respectfully requests this Honorable
Court to grant a Rehearing on this matter.
Respectfully Submitted,

/Iujzas
//
Jorf-Myers gs
209 Riwmew Avenue #35
Auburndale, MA 02466
617-899-0383
i on@calminterventions.com

8

Certificate of Compliance with Rule 44, Petition for Rehearing

Jon Myers

v.

Sondra Myers and others

I do hereby swear that I have complied with the Rules of the Supreme Court for Petitions
for Rehearing, specifically Rule 44. It is my earnest sense that the things I consider divine
interventions, in the way of enhanced understandings and presentation; that the
“substantial... if not “controlling'’ effect of health-related matters is prescient, and even the
net effect of continued evolution and development in the way of constructively influencing
the mindset of this situation, my family and my beloved America is also substantial.

Respectfully Submitted to the Honorable Supreme Court

on Myers

December 11, 2020

